                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                  OFFICE OF INVESTIGATIONS

                                          CLOSEOUT MEMORANDUM

Case Number: A03120083                                                                    Page 1 of 1



        We reviewed 71 grants selected by a random sampling procedure fiom NSF Fiscal Year 2001
        awards for conferences, workshops and symposia. As part of the review, we requested grant
        records fiom each grantee. Where the records indicated possible issues, we opened inquiries to
        resolve the issues.

        In a grant that supported participation in a symposium1,the grantee was unable to show which
        costs were charged to the grant, in apparent violation of grant conditions and OMB Circular A-
        110 Section .2 1, "Standards for financial management systems." We referred the matter to the
        Office of Audit for further review. Accordingly, this case is closed.




SF OIG Form 2 (11/02)
